                                                   Thomas P. O’Brien
                         NEWS                          United States Attorney
                        RELEASE                      Central District of California

                                                   Thom Mrozek, Public Affairs Officer
                                                           (213) 894-6947
                      For Immediate Distribution
                                                         thom.mrozek@usdoj.gov
                                                         www.usdoj.gov/usao/cac
                      February 24, 2009

  TWO PLEAD GUILTY TO DEFRAUDING TRUCKING COMPANIES IN
    MULTI-MILLION DOLLAR SCHEME THAT USED INTERNET SITE


      Two Southern California men have pleaded guilty to federal fraud charges
for fraudulently using a federal Internet site to defraud trucking companies out of at
least $2.4 million.
      Nicholas Lakes, also known as Dmitry Nadezhdin, 35, of Glendale, and
Viacheslav Berkovich, 34, of the Los Feliz section of Los Angeles, both pleaded
guilty yesterday to computer fraud and mail fraud charges before United States
District Judge John F. Walter.
      In plea agreements filed with the court, Lakes and Berkovich admitted that
they entered into a scheme to defraud trucking brokers and trucking companies
through use of the Internet. Using bogus corporate and individual identities, Lakes
and Berkovich accessed the Safety and Fitness Electronic Records System
(SAFER) Internet website, which is maintained by the Federal Motor Carrier Safety
Administration of the United States Department of Transportation. The government
provides the SAFER website to the trucking industry to register trucking
companies and brokerages that move goods via trucks.
      Lakes and Berkovich accessed the SAFER website with the intent to use a
fictitious brokerage that they registered on SAFER to offer to transport trucking
loads and collect payment from the original broker. Lakes and Berkovich
fraudulently accessed the SAFER website to "double broker" the trucking jobs to
legitimate trucking companies that they never paid for the actual trucking work that
was done. Lakes and Berkovich later used commercial “loadboards” to “double
broker” loads.
      As an example of later transactions in the fraudulent scheme, in January
2008, Lakes and Berkovich accessed the Internet Truckstop website and obtained
information about a trucking load being brokered by the Dallas-based Stevens
Transport. Using the name of Vega Trucking, one of the fictitious companies they
had registered on the SAFER website, Lakes and Berkovich agreed with Stevens
Transport to transport the load for $3,400. Lakes and Berkovich then illicitly used
the name of Barkfelt Transport, a legitimate trucking brokerage, to arrange for RK
Trucking to transport the load for $4,000. RK Trucking in fact transported the load,
but never got paid for its work. In early February 2008, Lakes and Berkovich
received a $3,390 check via the mail from Stevens Transport, which was
deposited into an account for Vega Trucking. Berkovich was the account holder
for this Bank of America account.
      The government contends that defendants derived at least $2.4 million from
the fraud scheme.
      The two defendants are scheduled to be sentenced by Judge Walter on
June 29. At sentencing, Lakes faces a maximum statutory sentence of 70 years in
federal prison, and he has agreed to forfeit his interest in $1.14 million in an
investment account. Berkovich faces a maximum sentence of 45 years in prison.
      This case is the product of an investigation by the Department of
Transportation, Office of the Inspector General.


      CONTACT: Assistant United States Attorney Ronald Cheng
                       Cyber and Intellectual Property Crimes Section
                       (213) 894-8644


      Release No. 09-015
